U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




      National Institute of Standards
                     and Technology

       FY 2009 FISMA Assessment of
Manufacturing Engineering Laboratory
              Managed Infrastructure
                       (NIST 820-01)


     Final Inspection Report No. OSE-19511/August 2009




                             Office of Audit and Evaluation
                                           UNITED STATES DEPARTMENT OF COMMERCE
                                           Office of Inspector General
                                           Washington 0 C 20230




     AUG - 7 2009


MEMORANDUM FOR: Dr. Patrick Gallagher
                Deputy Director
                National Institute of Standards and Technology



FROM:                        Alle~ r~
                             Assistant Inspector General
                              for Systems Acquisition and IT Security

SUBJECT:                     National Institute of Standards and Technology
                             FY 2009 FISMA Assessment ofManufacturing Engineering
                             Laboratory Managed Infrastructure (NIST 820-01)
                             Final Inspection Report No. OSE-19511

This report presents the results of our Federal Information Security Management Act
(FISMA) review ofNIST's certification and accreditation of the Manufacturing
Engineering Laboratory Managed Infrastructure.

We found that NIST's C&A process provided the authorizing official sufficient
information to make a credible risk-based decision to approve system operation.
However, the system security plan and control assessments, though generally adequate,
need improvement, and our tests of selected security controls identified weaknesses that
require remediation.

In its response to our draft report, NIST concurred with all our findings and fully
concurred with all but one of our recommendations. NIST's response is summarized in
the appropriate sections of the report where we also provide additional detail on the
recommendation that NIST disagreed with and address some other minor points of
disagreement. NIST's response is included in its entirety as appendix D.

We request that you provide us with an action plan describing the actions you have taken
or plan to take in response to our recommendations within 60 calendar days of the date of
this report. A plan of action and milestones should be used to communicate the plan as
required by FISMA.

We appreciate the cooperation and courtesies extended to us by your staff during our
evaluation. If you would like to discuss any of the issues raised in this report, please call
me at (202) 482-1855.
Attachment

cc:	   Suzanne Hilding, chief information officer, U.S. Department of Commerce
       Simon Szykman, chief information officer, NIST
       Howard Harary, acting director, Manufacturing Engineering Laboratory, NIST
       Kenneth R. Glenn, chief, Information Technology Security and Networking
          Division, NIST
                          OIG FY 2009 FISMA Assessment


Listing of Abbreviated Terms & Acronyms

AO           Authorizing Official


C&A          Certification and Accreditation
CIO          Chief Information Officer
DISA         Defense Information Systems Agency




FIPS         Federal Information Processing Standards
FISMA        Federal Information Security Management Act of 2002
IT           Information Technology


MEL          Manufacturing Engineering Laboratory
NIST         National Institute of Standards and Technology
OCIO         Office of the Chief Information Officer
OIG          Office of Inspector General
OMB          Office of Management and Budget


SSP          System Security Plan
TCP          Transmission Control Protocol
URL          Uniform Resource Locator




                                      Page 1
                                   OIG FY 2009 FISMA Assessment




  Synopsis of Findings

      •   System security plan was generally adequate but improvements are needed.

      •   Secure configuration settings were established for operating systems, but not for
          applications.

      •   Control assessments were generally adequate but certification weaknesses were
          found.

      •   OIG assessments found vulnerabilities requiring remediation.

  Conclusion

      •   As a result of the Commerce Office of the Chief Information Officer (OCIO) review
          referred to as the “Smart Spot Check” and subsequent improvement of the system
          C&A package, the authorizing official received sufficient information to make a
          credible, risk-based decision to approve system operation. Furthermore, continuous
          monitoring is providing the authorizing official sufficient information about the
          operational status and effectiveness of security controls. NIST should address the
          minor deficiencies we identified as part of its continuous monitoring of system
          security.



Summary of NIST Response

In its response to our draft report, NIST concurred with our findings and fully concurred with all
but one recommendation. NIST requested that recommendation 2.1 regarding secure
configuration settings be changed to only address the development of secure configuration
settings for                    rather than all IT products in the system. NIST also proposed
several modifications to tables 1 and 2 dealing with vulnerabilities identified by our control
assessments.

In addition, NIST identified actions it has taken or plans to take to address our recommendations.
NIST’s written response is included in its entirety as appendix D of this report.

OIG Comments

NIST generally concurred with our findings and all but one of our recommendations. We address
specific elements of NIST’s response in the applicable sections of the report and have modified
tables 1 and 2 based on NIST’s response.




                                               Page 2
                                OIG FY 2009 FISMA Assessment




Introduction
 The Manufacturing Engineering Laboratory (MEL) Managed Infrastructure supports the
 lab’s mission, which is to satisfy the measurements and standards needs of U.S.
 manufacturers in mechanical and dimensional metrology and advanced manufacturing
 technology by conducting research and development, providing services, and participating
 in standards activities.

 The MEL Managed Infrastructure comprises managed workstations, servers, printers, and
 firewalls that provide file sharing, printing, authentication, fileserver access to scientific
 project data, and security services to the laboratory’s staff and guest workers.

 NIST has categorized the MEL Managed Infrastructure as a                                ,



 The system was certified and accredited in September 2007 and was reviewed in
 December 2007 by the Department’s OCIO using the Smart Spot Check process. This
 process was created by the Department’s OCIO to determine whether C&A packages
 developed by Commerce operating units conform to the Department’s IT security policy and
 applicable NIST standards and guidelines. Improvements recommended by this review
 were incorporated into the C&A package we evaluated.




                                            Page 3
                                  OIG FY 2009 FISMA Assessment

Findings and Recommendations

 1. System Security Plan Was Generally Adequate but Improvements Are
    Needed
   •	   The system description correctly represented the system components and defined the
        accreditation boundary.
          o	 Component listing was accurate.
          o	 System boundaries and interconnections were clearly defined.

   •	   Implementation descriptions for 2 of 23 NIST SP 800-53 security controls we targeted
        for review need improvement:
          o	 Unsuccessful Login Attempts (AC-7) does not define the time period during which
               invalid login attempts are enforced as required by NIST SP 800-53.
          o	 User Identification and Authentication (IA-2) is identified as a system-specific
               control but our assessment revealed that it has common control characteristics.


                                                                   servers are managed by
              MEL system administrators. Thus, this control should be identified as a hybrid
              control in the implementation description.

   •	                      software is used by the system administrators for operational

        needs, but appropriate authorizations have not been obtained or documented in the 

        SSP. 

          o	 Department policy prohibits the use of                                on Commerce
              IT systems unless it has been explicitly authorized in writing by an operating unit
              CIO in support of an official Commerce IT application. The policy also requires a
              copy of each such authorization to be sent to the Commerce CIO.

   •	   The authorizing official and the senior agency information security officer had not
        approved the system security plan (SSP) prior to initiation of the security certification
        phase.
          o	 NIST certification and accreditation procedures have been revised to follow NIST
             800-37, Guide for the Security Certification and Accreditation of Federal
             Information Systems, which requires approval of the SSP prior to security
             certification.

 Recommendations

   NIST should ensure that

   1.1 the security control descriptions in the SSP are accurate and complete; and

   1.2 waivers or special authorizations are obtained and documented in accordance with 

       Department policy. 




NIST Response

NIST concurred with this finding and our recommendations.




                                              Page 4
                                   OIG FY 2009 FISMA Assessment


  2. Secure Configuration Settings Were Established for Operating
     Systems, but Not for Applications
        Background: The Department’s IT security policy and NIST SP 800-53 require
        establishing and assessing secure configuration settings for IT products, which include
        operating systems for system components (such as servers, desktops, laptops, routers,
        and switches) and applications (such as e-mail, web, VPN, firewall, intrusion detection,
        database, and antivirus). FISMA and OMB guidance also highlight the importance of
        secure configuration settings. Implementing and maintaining secure configuration
        settings is one of the most effective ways of negating threats.

    •     Secure configuration settings and system-specific deviations were established and
          assessed for the following:




    •     However, NIST did not establish secure configuration settings for
          and                 , two applications for which standardized configuration settings
          are available.

 Recommendation

    2.1 NIST should ensure that secure configuration settings are established, implemented,
        and assessed for all IT products in the system accreditation boundary in accordance
        with NIST SP 800-70, Security Configuration Checklists Program for IT Products.



NIST Response

NIST concurred with this finding but did not fully concur with this recommendation. NIST
requested that it be changed to “NIST should ensure that secure configuration settings are
established, implemented, and assessed for                              for this system in
accordance with NIST SP 800-70, Security Configuration Checklists Program for IT Products.”

OIG Comments

NIST’s suggested change indicates its willingness to establish secure configuration settings for
only                    —IT products for which secure configuration guides or checklists are
readily available. In addition to                    , MEL employs IT products such as
                                                                           , which have configurable
parameters that impact the security of the system; however, NIST has not established secure
configuration settings for these products. Our recommendation that NIST establish secure
configuration settings for all IT products is consistent with the NIST SP-800-53 control
requirement (Configuration Settings (CM-6)) that organizations establish “mandatory
configuration settings for information technology products employed within the information
system [emphasis added].”

We recognize that configuration guides or checklists that can be tailored might not be readily
available for some IT products employed within MEL. However, the current Department IT
security policy, updated March 2009, indicates operating units “shall use [NIST] SP 800-70 to
develop configuration setting checklists for IT products for which none are available.”

We therefore reaffirm our recommendation.

                                               Page 5
                                 OIG FY 2009 FISMA Assessment


  3. Control Assessments Were Generally Adequate but Certification
     Weaknesses Were Found
  The initial certification and accreditation package was completed in September 2007. After
  the system was accredited, the package underwent the Department’s Smart Spot Check
  review process and the documentation was updated to address certification deficiencies that
  were identified. Continuous monitoring activities were also conducted in July 2008. We
  reviewed security control assessments from the updated package and evaluated continuous
  monitoring results.

   •	   We reviewed certification assessments for a targeted set of 23 NIST SP 800-53
        security controls and determined the following were not properly assessed on all IT
        products.
          o	 SSP control implementation descriptions state that spam controls are
              implemented on                       . But Spam and Spyware (SI-8) assessment
              did not evaluate                               .
          o


                                                                                         (See
             finding 4.)
          o	 Authenticator Management (IA-5) requires that default authenticators (e.g.,
             passwords) be changed. Assessment procedures called for determining whether
             default authenticators are present but the                        were not
             evaluated.
                	 We assessed the            for default authenticators and found they had
                    been changed.

   •	   To evaluate FY08 continuous monitoring we reviewed all control assessments and
        found that
          o	 controls required by NIST’s continuous monitoring policy were assessed;
          o	 assessment procedures were developed and used to evaluate controls
              implemented on specific system components;
          o	 assessment results provided sufficient detail to support the outcome of
              assessment procedures; and
          o	 vulnerabilities identified during continuous monitoring were appropriately
              resolved, and the authorizing official was made aware of the results of the
              continuous monitoring effort.

  Recommendations

   NIST should ensure that assessments

   3.1 address all aspects of the control as it is implemented in the system; and

   3.2 are applied to all applicable IT products.



NIST Response

NIST concurred with this finding and our recommendations




                                              Page 6
                                  OIG FY 2009 FISMA Assessment


   4. OIG Assessments Found Vulnerabilities Requiring Remediation
 As part of OIG’s FY09 FISMA evaluation of the MEL Managed Infrastructure, we assessed a
 targeted set of system components to determine if selected security controls are properly
 implemented. We tailored our procedures to the infrastructure’s specific control
 implementations.

  Our assessments found the following vulnerabilities:




 Recommendations

  NIST should

  4.1 ensure the vulnerabilities we identified are added to the system’s plan of action and
      milestones and either remediated or accepted by the authorizing official; and

  4.2 review the configuration settings that are not compliant with established checklists and
      correct them, document them as deviations, or incorporate them into the secure
      checklist.




NIST Response

NIST concurred with this finding and our recommendations but took exception to several entries
in tables 1 and 2.

For the entry related to setting #18 in table 1, NIST noted that the deviation from the default
setting for the component             is required to allow access to                       and that
the deviation for authentication servers has now been documented in its secure configuration
                   .


                                              Page 7
                                  OIG FY 2009 FISMA Assessment

For table 2, NIST indicated that the “      ” service needs to be enabled for three of the
components we identified. NIST also requested we remove the fully-qualified host name for the
component              ”

OIG Comments

We added a note to table 1 to indicate that NIST reported documenting a deviation from setting
#18 in its established checklist.

We deleted from table 2 the three components NIST identified as requiring the                service
and removed the fully-qualified host name for                because it is not needed to address the
                               vulnerability we identified for that component.




                                              Page 8
                                                    OIG FY 2009 FISMA Assessment



Table 1. Secure Configuration Settings That Are Not Compliant With Established Checklists




                                                               Page 9

                                                   OIG FY 2009 FISMA Assessment



Table 2. Vulnerabilities Identified Through OIG System Scanning Using Nessus

Vulnerability              Port                Component                       OIG Comments




                                                             Page 10

                                OIG FY 2009 FISMA Assessment


Appendix A: Objectives, Scope, and Methodology

To meet the FY 2009 FISMA reporting requirements, we evaluated the NIST certification and
accreditation for the Manufacturing Engineering Laboratory (MEL) Managed Infrastructure
(NIST 820-01).
Security certification and accreditation packages contain three elements, which form the basis
of an authorizing official’s decision to accredit a system.

    •   The system security plan describes the system, the requirements for security
        controls, and the details of how the requirements are being met. The security plan
        provides a basis for assessing security controls and also includes other documents
        such as the system risk assessment and contingency plan, per Department policy.
    •   The security assessment report presents the results of the security assessment
        and recommendations for correcting control deficiencies or mitigating identified
        vulnerabilities. This report is prepared by the certification agent.
    •   The plan of action & milestones is based on the results of the security assessment.
        It documents actions taken or planned to address remaining vulnerabilities in the
        system.

Commerce’s IT Security Program Policy and Minimum Implementation Standards requires
that C&A packages contain a certification documentation package of supporting evidence of
the adequacy of the security assessment. Two important components of this documentation
are:

    •   The certification test plan, which documents the scope and procedures for testing
        (assessing) the system’s ability to meet control requirements.
    •   The certification test results, which is the raw data collected during the
        assessment.

To evaluate the certification and accreditation, we reviewed all components of the package
and interviewed NIST staff to clarify any apparent omissions or discrepancies in the
documentation and gain further insight on the extent of the security assessment. We
evaluated the system security plan descriptions and security assessment results for a
targeted set of security controls and will give substantial weight to the evidence that supports
the rigor of the security assessment when reporting our findings to OMB. (See appendix B for
the controls we evaluated.)

In addition, we performed our own security control assessments on MEL Managed
Infrastructure components. We chose a subset of the controls specified in NIST SP 800-53
for a moderate-impact system, and a subset of procedures from NIST SP 800-53A, which we
tailored to NIST’s specific control implementations. We did not attempt to perform a complete
assessment of each control; instead we chose to focus on specific aspects of some of the
more important technical and operational controls. (See appendix C for the controls we
assessed on MEL Managed Infrastructure components.)

We assessed controls on key classes of IT components and applications, choosing a targeted
set of components from each class that would allow for direct comparison with NIST’s
certification test results. We assessed control implementations on five

                                                                                  components.
In addition, we examined the security plan descriptions, including related policy documents,
and interviewed appropriate NIST personnel.

Our assessments included the following activities:


                                            Page 11
                                OIG FY 2009 FISMA Assessment



    •	   Extraction, examination, and verification of system configurations
    •	   Generation of system events and examination of system logs
    •	   Execution of DISA (Gold Disk) and NIST scripts
    •	   Addition, modification, and deletion of operating system accounts
    •	   Execution and analysis of Nessus vulnerability scans

Our assessment was limited in scope and should not be interpreted as the comprehensive
review that a security certification for a             system would require. However, our
assessments gave us direct assurance of the status of select aspects of important controls in
MEL Managed Infrastructure and provided meaningful comparison to NIST’s security
certification.

We used the following review criteria:
   •	 Federal Information Security Management Act of 2002 (FISMA)
   •	 U.S. Department of Commerce, IT Security Program Policy and Minimum 

      Implementation Standards, June 30, 2005 

   •	 NIST’s Federal Information Processing Standards (FIPS)
           o	 Publication 199, Standards for Security Categorization of Federal Information
                and Information Systems
           o	 Publication 200, Minimum Security Requirements for Federal Information and
                Information Systems
   •	 NIST Special Publications:
           o	 800-18, Guide for Developing Security Plans for Information Technology
                Systems
           o	 800-37, Guide for the Security Certification and Accreditation of Federal
                Information Systems
           o	 800-53, Recommended Security Controls for Federal Information Systems
           o	 800-53A, Guide for Assessing the Security Controls in Federal Information
                Systems
           o	 800-70, Security Configuration Checklists Program for IT Products
           o	 800-115, Technical Guide to Information Security Testing and Assessment


We conducted our evaluation in accordance with the Inspector General Act of 1978, as
amended, and the Quality Standards for Inspections (rev. January 2005) issued by the
President’s Council on Integrity and Efficiency.




                                            Page 12
                            OIG FY 2009 FISMA Assessment


Appendix B: Targeted Set of NIST SP 800-53 Security Controls
Evaluated During OIG Review of MEL Managed Infrastructure System
Security Plan and Security Assessment Results

  •   Account Management (AC-2)
  •   Unsuccessful Login Attempts (AC-7)
  •   System Use Notification (AC-8)
  •   Session Lock (AC-11)
  •   Session Termination (AC-12)
  •   Wireless Access Restrictions (AC-18)
  •   Auditable Events (AU-2)
  •   Response to Audit Processing Failures (AU-5)
  •   Time Stamps (AU-8)
  •   Configuration Settings (CM-6)
  •   Least Functionality (CM-7)
  •   User Identification and Authentication (IA-2)
  •   Authenticator Management (IA-5)
  •   Water Damage Protection (PE-15)
  •   Rules of Behavior (PL-4)
  •   Vulnerability Scanning (RA-5)
  •   User Installed Software (SA-7)
  •   Boundary Protection (SC-7)
  •   Mobile Code (SC-18)
  •   Flaw Remediation (SI-2)
  •   Malicious Code Protection (SI-3)
  •   Information System Monitoring Tools and Techniques (SI-4)
  •   Spam Protection (SI-8)




                                       Page 13
                              OIG FY 2009 FISMA Assessment


Appendix C: NIST SP 800-53 Security Controls Assessed by OIG on MEL
Managed Infrastructure Components

  •   Account Management (AC-2)
  •   Unsuccessful Login Attempts (AC-7)
  •   System Use Notification (AC-8)
  •   Session Lock (AC-11)
  •   Auditable Events (AU-2)
  •   Time Stamps (AU-8)
  •   Configuration Settings (CM-6)
  •   Least Functionality (CM-7)
  •   User Identification and Authentication (IA-2)
  •   Authenticator Management (IA-5)
  •   Rules of Behavior (PL-4)
  •   User Installed Software (SA-7)
  •   Mobile Code (SC-18)
  •   Flaw Remediation (SI-2)
  •   Malicious Code Protection (SI-3)




                                         Page 14
                                                    UNITED STATES DEPARTMENT OF COMMERCE
                                                    National Institute of Standards and Technology
                                                    Gaithersburg, Maryland 20899-0001
                                                    OFFICE OF THE DIRECTOR




  JUL 10 2009


MEMORANDUM FOR Allen Crawley
               Assistant Inspector General
                    for Systems Acquisition and IT Security

From:	         Patrick Gallagher
               Deputy Director
                                   11
                                   ~~
                                      C "
                                       <;/f''-­     "/

Subject:	     NIST Comments in Response to Draft Inspection Report No. OSE-19511 Entitled
              "FY 2009 FISMA Assessment ofManufacturing Engineering Laboratory
              Managed Infrastructure" (NIST 820-01), Draft Inspection Report No. OSE-19511

I would like to thank you for the opportunity to comment on your Draft Inspection Report No.
OSE-19511, entitled "FY 2009 FISMA Assessment ofManufacturing Engineering Laboratory
Managed Infrastructure" (NIST 820-01). In addition, I would like to compliment you on the
thoroughness of your review.

NIST concurs with the majority of recommendations made in your draft report, and I assure you
we will take all steps necessary to implement your recommendations. In the few cases where
NIST does not fully concur with your recommendations, we have suggested that the language of
the recommendation be changed, or we note that the recommendation is no longer appropriate
due to changes in systems administration or configuration. NIST comments on the draft
inspection report are found in the attachment to this letter.

Again, I would like to thank you for the opportunity to comment on this draft report, and assure
you that NIST will implement your recommendations as soon a possible. If you have any
questions concerning this response, please contact Stephen Willett on (301) 975-8707. Your
efforts to improve NIST systems security are greatly appreciated.

Attachment




                                                                                        NISr

Response to FY 2009 FISMA Assessment of Manufacturing Engineering Laboratory
Managed Infrastructure (NIST 820-01)
Draft Inspection Report No. OSE-19511/May 2009
Comments due June 12, 2009



1. System Security Plan Was Generally Adequate but Improvements Are Needed

Recommendations
NIST should ensure that
1.1 the security control descriptions in the SSP are accurate and complete; and
1.2 waivers or special authorizations are obtained and documented in accordance with Department policy.

NIST Response
        NIST concurs with these findings and recommendations. See below for detailed responses.

                                                                    NIST/MEL Remediation
              OIG Documented Deficiency                                                             Testing Evidence and References
                                                                       Plan/Justification
System Security Plan:                                              Corrected the MEL Procedures
                             Unsuccessful Login Attempts (AC-
Implementation description                                         referenced in the SSP for this
                             7) does not define the time period
for two of twenty-three                                            system. Corrected procedures
                             during which invalid login attempts                                    See System Security Plan for 820-01.
NIST SP 800-53 security                                            included with the system
                             are enforced as required by NIST
controls we targeted for                                           documentation on the NIST
                             SP 800-53
review need improvement                                            OCIO secure share.




                                                                                                                                           Page 1 of 10
                                User Identification and
                                Authentication (IA-2) is identified
                                as a system-specific control but our
                                assessment revealed that it has
                                common control characteristics.


                                                                       Corrected in the System Security
                                                                       Plan for 820-01 for the FY09       See System Security Plan for 820-01.
                                                                       annual assessment.

                                                     servers are
                                managed by MEL system
                                administrators. Thus, this control
                                should be identified as a hybrid
                                control in the implementation
                                description.
                                Department policy prohibits the use
                                of                               on
                    software
                                Commerce IT systems unless it has
is used by the system
                                been explicitly authorized in          The NIST CIO’s office is
administrators for
                                writing by an operating unit CIO in    currently drafting appropriate
operational needs, but                                                                                    Appropriate authorizations will be obtained.
                                support of an official Commerce IT     authorizations for specific and
appropriate authorizations
                                application. The policy also           necessary use of
have not been obtained or
                                requires a copy of each such
documented in the SSP.
                                authorization to be sent to the
                                Commerce CIO.
                                                                       NIST certification and
                                                                       accreditation procedures have
                                                                       been revised to follow NIST 800-
The authorizing official and the senior agency information security    37, Guide for the Security
officer had not approved the system security plan (SSP) prior to       Certification and Accreditation
initiation of the security certification phase.                        of Federal Information Systems,
                                                                       which requires approval of the
                                                                       SSP prior to security
                                                                       certification.




                                                                                                                                                         Page 2 of 10
2. Secure Configuration Settings Were Established for Operating Systems, but Not for Applications

Recommendation
2.3 NIST should ensure that secure configuration settings are established, implemented, and assessed for all IT products in the system
    accreditation boundary in accordance with NIST SP 800-70, Security Configuration Checklists Program for IT Products.

NIST Response
         NIST concurs with this finding, but does not concur with the wording for this recommendation. Requested wording detailed
           red below.
    in
                                                                  NIST/MEL Remediation
OIG Documented Deficiency                                                                                      Testing Evidence and References
                                                                     Plan/Justification
                                                                                                     See CIS and DISA websites for checklists.
                                                                                                     See recently accredited NIST systems for examples of use of
                                                                 NIST currently uses established     such checklists at NIST. An example is SSP 181-04, where
                                                                 secure configuration settings for   CIS checklists were used for both
                                                                 applications where standardized     The next testing cycle for 820-01 will use such checklists.
NIST did not establish secure configuration settings for
                                                                 configuration settings are
                                    two applications for which
                                                                 available such as                   NIST requests that the recommendation be changed to read:
standardized configuration settings are available
                                                                         NIST is currently using     “NIST should ensure that secure configuration settings are
                                                                 established secure configuration    established, implemented, and assessed for
                                                                 settings from CIS and DISA.                     for this system in accordance with NIST SP 800-
                                                                                                     70, Security Configuration Checklists Program for IT
                                                                                                     Products.”




                                                                                                                                                    Page 3 of 10
3. Control Assessments Were Generally Adequate but Certification Weaknesses Were Found

Recommendations
NIST should ensure that assessments
3.1 address all aspects of the control as it is implemented in the system; and
3.2 are applied to all applicable IT products.

NIST Response
         NIST concurs with these findings and these recommendations. See below for detailed responses.

                                                                                        NIST/MEL
OIG Documented Deficiency                                                              Remediation               Testing Evidence and References
                                                                                     Plan/Justification
                                                                                  The NIST CIO’s office will
                                    SSP control implementation descriptions
                                                                                  ensure that
                                    state that spam controls are implemented
                                    on                     , but Spam and
                                                                                                   during the
                                    Spyware (SI-8) assessment did not
                                                                                  next testing cycle for 820-
                                    evaluate
                                                                                  01.



                                                                                  There is a current NIST
We reviewed certification                                                         CIO POA&M to address
assessments for a targeted set of                                                 this issue NIST wide.
twenty-three NIST SP 800-53
security controls and determined
the following were not properly
assessed on all IT products.        Authenticator Management (IA-5)
                                    requires that default authenticators (e.g.,
                                    passwords) be changed. Assessment
                                    procedures called for determining             The NIST CIO’s office will
                                    whether default authenticators are present    ensure that the
                                    but the                           were not                    are properly
                                    evaluated.                                    evaluated for 820-01’s next
                                         • We assessed the              for       testing cycle.
                                             default authenticators and found
                                             they had been changed.


                                                                                                                                            Page 4 of 10
4. OIG Assessments Found Vulnerabilities Requiring Remediation

Recommendations
NIST should
4.1 ensure the vulnerabilities we identified are added to the system’s plan of action and milestones and either remediated or accepted by the
    authorizing official; and
4.2 review the configuration settings that are not compliant with established checklists and correct them, document them as deviations, or
    incorporate them into the secure checklist.

NIST Response
       NIST concurs with these findings and these recommendations, with the exception of deviations documented in red below.
       Additionally NIST requests the removal of the fully qualified hostname from the final report (see note in Table 2 below).
       See below for detailed responses.

                                                             NIST/MEL Remediation
OIG Documented Deficiency                                                                             Testing Evidence and References
                                                                Plan/Justification



                                                                      The MEL IT Security
                                                           Officer briefed the System
                                                           Owner on the complete list of

                                                                              and what was
                                                           considered valid due to business
                                                           justification.




                                                                                                                                       Page 5 of 10
                                                    There is a current NIST CIO
                                                    POA&M to address this issue
                                                    NIST wide.




Noncompliant configuration
settings. Secure configuration                      See Table 1 below for specific
                                     See Table 1
settings are not compliant with                     responses.
established checklists.
Other vulnerabilities. Our
scanning using Nessus found
several vulnerabilities, including                  See Table 2 below for specific
                                     See Table 2
                                                    responses.



Table 1. Secure Configuration Settings That Are Not Compliant With Established Checklists

Operating       Component            Noncompliant   Remediation Plan                 Justification or Testing Evidence
 System           Name                 Settings




                                                                                                                         Page 6 of 10
Page 7 of 10




               

Page 8 of 10




               

Table 2. Vulnerabilities Identified Through OIG System Scanning Using Nessus

  Vulnerability   Port    Component        OIG Comments            NIST Remediation Plan   Justification




                                                                                                   Page 9 of 10




                                                                                                                  

Page 10 of 10




                

